                                     U.S. DEPARTMENT OF THE INTERIOR
                                         OFFICE OF INSPECTOR GENERAL




         PROGRAM ASSESSMENT RATING TOOL
           REVIEW OF BUREAU OF INDIAN AFFAIRS
              ROAD MAINTENANCE PROGRAM




                          Photo Courtesy of BIA Division of Transportation.




C-RR-BIA-0010-2006	   	         	          	          	          	            	   	   	              MARCH 2007
                                         Why We Did This Review
WHAT IS THE PART?
                             The Deputy Secretary asked the OIG to review the programs assessed using
Federal agencies use the     the Office of Management and Budget (OMB) Program Assessment Rating
Program Assessment           Tool (PART) and suggest improvements for programs that could not
Rating Tool (PART), a        demonstrate effective results.
standard questionnaire,
to submit information on     As of 2006, OMB has assessed 73 DOI programs, representing over $9
federal programs to the      billion in annual budget authority, using the PART. OMB was unable to
Office of Management         determine whether 22 of these programs, reflecting half of the assessed
and Budget (OMB).            spending, were performing satisfactorily due to the lack of reliable perfor-
                             mance information. We evaluated the Bureau of Indian Affairs’ (BIA) Road
OMB uses the information     Maintenance program, which previously failed to demonstrate results and
to evaluate program          is expected to be reassessed by OMB in 2007.
effectiveness, to
recommend improvements
for rated programs, and to                               Objective
follow up on those
improvements.
                             Our review objectives were twofold. We sought to review BIA progress in
PART results are published   responding to OMB FY2004 PART recommendations as well as provide
on the ExpectMore.gov        suggestions that BIA can use to prepare for its upcoming PART review.
Web site.

See Appendix A for more                                  Summary
information on the history
and use of the PART.
                             Overall, BIA has made progress in addressing the three OMB
                             recommendations related to the Road Maintenance program. Specifically,
                             BIA has developed a performance measure, issued regulations encouraging
                             state and local governments to maintain their roads through Indian
                             reservations, and arranged for the Federal Highway Administration (FHWA)
                             to conduct an independent evaluation of the program. However, we have
                             identified areas still in need of improvement.
                             Thus, this report provides suggestions for improvement and is structured
                             to correspond to key recommendations from OMB’s 2004 program
                             assessment.

                             If BIA satisfactorily addresses the areas of improvement we have identi-
                             fied, we believe the Road Maintenance program will be better positioned
                             to achieve a positive rating in its upcoming PART reassessment.




                                               1
                                          Background
                 There are approximately 63,000 miles of public roads on federally
                 recognized Indian reservations. The Indian Reservation Road (IRR)
                 system provides transportation and public access to, within, and through
                 Indian reservations for Native Americans, visitors, recreational users,
                 resources users, and others. The IRR system is funded by the Federal
                 Highway Trust Fund (HTF) and administered jointly by BIA and FHWA.
                 Through the BIA Road Construction program, HTF funds are statutorily
                 allocated to tribes for the construction, reconstruction, rehabilitation, and
                 replacement of roads and bridges.

                 The goal of BIA’s Road Maintenance program is to ensure the maintenance
                 of the approximately 25,000 miles of BIA-owned roads. The program
                 funds the maintenance necessary to ensure that roads meet their design
                 life, and provides other services such as snow removal, striping, and ditch
                 cleaning. However, for the past 10 years, the program has been chronically
                 under-funded, preventing BIA from satisfactorily meeting its maintenance
                 program objectives.

                 In 2006, funding for the Road Maintenance program totaled approximately
                 $26 million. In 2003, BIA estimated that funding of $120 million was
                 needed annually to adequately maintain the 25,000 miles of BIA-owned
                 roads. A lack of funding has contributed to an estimated $243 million
                 reported deferred maintenance backlog. BIA Road Maintenance officials
                 stated that current funding is generally only sufficient to perform emergency
                 and other high priority road maintenance activities. At the current
                 funding level, they expect the deferred maintenance backlog to continue to
                 increase.
           $40


                        BIA Road Maintenance: 10 Year Funding Trend


           $30
Millions




                                                                                 $28
                                         $26                                              $26
                 $26

           $20




           $10
                 1997    1998    1999    2000    2001    2002     2003    2004    2005    2006
                                                Fiscal Year
                                    2
         Tribes, state and local governments own approximately 38,000 miles of IRR
         system roads and are responsible, by law, for the maintenance of these roads.
         Under the 2005 Safe, Accountable, Flexible, Efficient Transportation Equity
         Act: A Legacy for Users (SAFETEA–LU), up to 25 percent of a tribe’s
         annual trust fund allocation can be used, at the tribe’s discretion, for
         maintenance of the IRR system. In FY2007, SAFETEA-LU allocated
         $370 million for road construction on Indian reservations. Thus, funding
         of $92.5 million was potentially available for maintenance of IRR roads.
         While this funding could improve overall maintenance of the IRR system,
         BIA does not have the authority to direct these funds toward maintenance
         of BIA roads and, therefore, it is not yet clear what benefit may
         accrue to the BIA system.

INDIAN RESERVATION ROADS FUNDING PROCESS




                           3
                                        Scope and Methodology
                             We conducted this review of BIA’s Road Maintenance program in
                             accordance with the “Quality Standards for Inspections” issued by the
                             President’s Council on Integrity and Efficiency.

                             We limited our review to BIA’s progress in implementing the
                             recommendations from OMB’s 2004 review of the Roads Maintenance
                             program. To ascertain BIA’s progress, we interviewed program officials,
                             reviewed and analyzed supporting documents, and conducted site visits to
                             BIA’s Southwest Region, Southern Pueblos Agency, and the Central Office
                             of BIA’s Division of Transportation.


                                              Results of Review
                             We reviewed the Road Maintenance program and found that BIA has
                             made progress in implementing the three OMB recommendations. We ad-
                             dress each recommendation below and provide suggestions that BIA might
                             take to improve its PART rating.


OMB Recommendation 1: Develop performance goals and measures, baseline
                      information and targets.
                             Performance goals, measures, baselines and targets are tools needed to
 PERFORMANCE                 evaluate and improve a program’s long term effectiveness. In 2004, OMB
 GOALS set a target          found that the BIA Road Maintenance program had inadequate performance
 level to measure            measures and lacked sufficient information on the condition of
 performance over time.      reservation roads. Specifically, the BIA Road Maintenance program was
                             unable to satisfactorily address the following PART questions related to
 PERFORMANCE                 reservation road conditions:
 MEASURES are
 indicators, statistics or          Question 2.2 Does the program have ambitious targets and
 metrics used to gauge              time frames for its long-term measures?
 program performance.
                                    Question 2.4 Does the program have baselines and ambitious
 BASELINES are                      targets for its annual measures?
 starting points from
 which improved                     Question 3.1 Does the agency regularly collect timely and credible
 performance measures               performance information, including information from key program
 and targets are set.               partners, and use it to manage the program and improve
                                    performance?
 TARGETS refer to
 improved levels of                 Question 4.4 Does the performance of this program compare favor-
 performance needed to              ably to other programs, including government, private, etc., with
 achieve the stated goals.          similar purpose and goals?


                                              4
Road Maintenance personnel use
 the BIA guidebook to visually
    assess road conditions.
                                       As a result of the PART review, OMB recommended that the program
                                       develop performance goals and measures, baseline information, and
                                       targets. Since the 2004 PART assessment, BIA has taken steps to collect
                                       baseline information on the condition of its roads and has developed a
                                       new performance measure to assess the condition of the roads.

                                       To assess road conditions, BIA developed the Service Level Index (SLI)
                                       as a performance measure. The SLI is calculated as the percentage of total
                                       roads in good or better condition. BIA’s FY2005 goal for the SLI was 15
   An example of a
                                       percent.
 paved road assessed
     to be in poor
                                       To determine the SLI, BIA developed a Surface Condition Rating Guide
      condition.
                                       for field staff to evaluate road conditions. The guide provides brief
                                       descriptions of the five levels of service that reflect the general condition
                                       of paved and unpaved roads. Specific criteria for rating paved roads
                                       (number of potholes, unsealed cracks, and presence of invasive vegetation)
                                       as well as physical and visual criteria (appearance and operability of the
                                       road and deficiencies related to road safety) are included in this guide.
                                       Ratings range from “1” indicating excellent condition to “5” indicating
                                       very poor or failing condition.

                                       The guidebook provides general parameters that allow BIA officials to
   An example of an
                                       rate roads visually, without having a great deal of specialized knowledge.
   unimproved road
                                       However, based on our review of the guidebook, we concluded it would
   assessed to be in
                                       be very difficult to ensure reliable and consistent ratings because the rating
 very poor condition.
                                       system is highly subjective.
      -OIG Photos of BIA Roads on
   Indian Reservations in New Mexico
                                       We found that Road Maintenance program condition assessments are not
Road Maintenance                       only unreliable, but also required the inefficient use of resources because
Program Condition                      similar and more reliable condition assessments are conducted by the
Assessments are                        Road Construction program. The Road Construction program utilizes
Unreliable                             independent contractors who use more detailed procedures for testing and
                                       rating road surfaces, beds, and drainages to conduct condition
                                       assessments.

                                       We performed a limited review of the Road Construction program
                                       assessments and found that they generally include information that is
                                       more reliable than assessments performed by Road Maintenance program
                                       personnel.

                                       We concluded that the SLI is a useful indicator of the effectiveness of the
                                       Road Maintenance program. However, we identified two concerns regard-
                                       ing BIA’s use of this measure. Specifically:




                                                         5
                                   •   Condition assessments used to calculate the measure are
                                       unreliable.

BIA Needs Additional               •   Regardless of the fact that the poor condition of BIA roads 		
Performance Measures                   is mostly attributable to lack of funding, OMB may consider 		
to Demonstrate                         the program ineffective because so few roads are in good or
Program Effectiveness                  better condition. The SLI does not demonstrate how well the 	 	
                                       program uses the limited funds that it receives.

                             We suggest that the BIA director instruct the Transportation Division chief to:
                                   •   Discontinue the practice of using Road Maintenance staff to             	
                                       perform road condition assessments.

                                   •   Use the SLI measure to highlight the need for additional
                                       funding. In preparing future budget justifications, BIA could
                                       present the different SLI targets that could be met at different
                                       funding levels.

                                   •   In the abscence of additional funds, develop additional
                                       performance measures that reflect how effectively the program
                                       uses its limited funding.

OMB Recommendation 2: Develop a process to encourage states and local
                      governments to meet their responsibilities on
                      reconstruction of their roads crossing
                      reservations on a timely basis.

Road Project Approval        BIA, state and local governments each have responsibilities for roads on
can be Withheld if           Indian reservations. BIA seeks cooperation and coordination to ensure
States and Local             that all reservation roads are effectively maintained.
Governments do not
Meet Their Maintenance       Tribes, state and local governments own approximately 38,000 miles of
Responsibilities             IRR system roads and are responsible, by law, for the maintenance of these
                             roads. The BIA Road Construction program is supposed to coordinate with
                             the BIA Road Maintenance program to achieve the design life of the IRR
                             system. However, local entities do not adequately maintain their roads
                             and BIA has no direct control over county and state federal-aid programs.

                             In 2004, OMB found that when state and local governments do not
  DESIGN LIFE is             adequately maintain their roads, they deteriorate more quickly and do not
  the number of years a      meet their design lives. As a result, tribes must redirect Federal Highway
  structure is expected to   Trust Funds to reconstruct these roads instead of reconstructing BIA-
  last.                      owned roads. This defers reconstruction of BIA roads and increases
                             annual BIA maintenance costs. Specifically, the BIA Road Maintenance
                             program was unable to satisfactorily address the following PART
                             questions related to this condition:




                                               6
       Question 1.4 Is the program design free of major flaws that would
       limit the program’s effectiveness or efficiency?

       Question 1.5 Is the program effectively targeted, so that resources
       will reach intended beneficiaries and/or otherwise address the
       program’s purpose directly?

       Question 3.5 Does the program collaborate and coordinate effectively
       with related programs?

As a result of the PART review, OMB recommended that the program
develop a process to encourage states and local governments to meet their
responsibilities for reconstruction of their roads crossing reservations on a
timely basis.

In response to this recommendation, BIA developed a process that links
U.S. Department of Transportation (DOT) approval for new state and local
road projects to adequate maintenance of reservation roads. Regulations
implementing this process (25 CFR 170.811) were developed and
distributed to local entities. Under these regulations, if BIA determines
that a state or local government road crossing an Indian reservation is
not being maintained, BIA informs the Secretary of the Interior who then
notifies the road owner and the U.S. Secretary of Transportation. The U.S.
Secretary of Transportation can then withhold approval of other road
projects to ensure maintenance is performed.

While these regulations do not specifically address reconstruction, we
believe they satisfy the intent of this recommendation because adequate
ongoing maintenance will generally defer the need for reconstruction and
reduce total lifecycle costs. DOI has no authority to compel local
governments to take action, but referring deficiencies to the DOT may
prompt remedial action because DOT can withhold approval of projects.

We suggest that the BIA director:

       •   Work with OMB to confirm that the intent of this recommendation	
           has been satisfied, and close the follow-up action.




                  7
OMB Recommendation 3: Develop a process for and schedule of indepen-
                      dent program evaluations.


Process for             Independent program evaluations must be conducted periodically to en-
Independent Program     sure that programs are effectively managed. In 2004, OMB found that the
Evaluations Implemented BIA Road Maintenance program had not conducted Independent Program
                        Evaluations. Specifically, the BIA Road Maintenance program was
                        unable to satisfactorily address the following PART questions related to
                        this condition:

                                     Question 2.6 Are independent evaluations of sufficient scope and
                                     quality conducted on a regular basis or as needed to support
                                     program improvements and evaluate effectiveness and relevance to
                                     the problem, interest, or need?

                                     Question 4.5 Do independent evaluations of sufficient scope and
                                     quality indicate that the program is effective and achieving results?

                              As a result of the PART review, OMB recommended that the program
                              develop a process for and schedule of independent program evaluations.

                              In response to this recommendation, BIA negotiated a contract with
                              FHWA to conduct an independent program evaluation of the Road
                              Maintenance program. FHWA hired a contractor who is currently
                              collecting background information on BIA’s Road Maintenance program.
                              The contractor is scheduled to complete the evaluation effort by spring
                              2007. The specific tasks initially assigned to the contractor were:

                              A. Research and document all previously prepared documentation or
                                 review publications of the BIA maintenance program, including those
                                 materials prepared by OMB as well as others, and provide hard and/or
                                 electronic copies of such information.

                              B. Research and document the nature and extent of all BIA maintenance
                                 program activities and engineering practices, and describe them in
                                 tabular format where applicable.

                              C. Research and document all BIA Road Maintenance program
                                 management processes, including annual appropriation and funding
                                 amounts, uses, and final status and describe the processes in tabular
                                 and/or flow-chart format when applicable.

                              D. Research and document all laws, regulations, policy documents, and
                                 codes applicable to the BIA program, and provide hard and/or
                                 electronic copies of such information.




                                               8
Once these tasks are completed, BIA officials stated that tasks to evaluate
program effectiveness will be developed and assigned to the contractor to
complete the program evaluation. However, BIA has not arranged for
additional evaluations to be completed as suggested by PART question 2.6.

We suggest that the BIA director instruct the Transportation Division
chief to:


       •   Develop and implement a schedule for additional independent 	 	
           program evaluations.




                         Conclusion

Implementing the suggestions identified in this report should better posi-
tion BIA to achieve a positive rating in its PART reassessment.




                  9
                              Appendix A: History and Use of the PART

Planning and              In 1993, the Congress found federal managers to be “disadvantaged in
Performance Monitor-      their efforts to improve program efficiency and effectiveness, because of
ing are Required by Law   insufficient articulation of program goals and inadequate information on
                          program performance.” The Government Performance and Results Act
                          (Public Law 103-62), or GPRA, was passed to promote a focus on results
                          by requiring federal agencies to engage in strategic planning and
                          performance reporting.

Executive Agencies        The President’s Management Agenda, which includes a government-wide
Focused on Improving      initiative to improve budget and performance integration, was published in
Performance               2001. The agenda calls for agencies to monitor program performance and
                          to incorporate performance review into budgetary decision-making.

Objectives and Results    To support this initiative, OMB instituted a new activity within the
of Federal Programs       context of budget formulation. OMB uses a standard questionnaire called
are Assessed During       the Program Assessment Rating Tool (PART) to engage federal programs
Budget Formulation        in a review of program design, strategic planning, program management,
                          and the achievement of results that demonstrate value for the taxpayer.
                          Through the PART process, OMB rates programs as Effective, Moderately
                          Effective, Adequate, or Ineffective. Alternatively, programs that are
                          unable to provide reliable performance information (thus precluding
                          assignment of a program rating) are deemed Results Not Demonstrated
                          and are instructed to establish or improve mechanisms for performance
                          measurement.

OMB has Found that        As of 2006, of the federal programs assessed, only 17 percent have been
Many DOI Programs         rated Effective, while 21 percent were placed in the category Results Not
Lack Performance          Demonstrated. Within the DOI, OMB assessed 73 programs, reflecting
Information               over $9 billion dollars in annual budget authority. Of these, only eight
                          were rated Effective and OMB examiners were unable to determine
                          whether 22 of these programs, reflecting nearly half of the assessed
                          spending, were performing satisfactorily due to the lack of reliable
                          performance information.
                                    SUMMARY OF PART RATING RESULTS
                                  PART Ratings  Federal Programs DOI Programs

                          Effective                        166 (17%)            8 (11%)
                          Moderately Effective             299 (31%)            21 (29%)
                          Adequate                         276 (28%)            22 (30%)
                          Ineffective                      27 (3%)              0 (0%)
                          Results Not Demonstrated         209 (21%)            22 (30%)
                          Total Number of Programs         977                  73
                          Rated

                                           10
PART findings can be used to justify termination or substantial curtailment
of federal programs, to support legislative or fiscal enhancements, or to
promote management improvements. OMB publishes PART results on
its ExpectMore.gov Web site, together with recommended improvement
actions for every program that has been assessed. Agency officials and
program managers are expected to follow-up on these recommendations
and to keep OMB, and ultimately the public, apprised of progress through
updates of the information posted to ExpectMore.gov and through other
internal communications. OMB then reassesses programs on schedules
developed in consultation with responsible agencies.




                 11
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
